No.

In the

Supreme Court of the United States
DAVID DAVALOS SR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

CERTIFICATE OF SERVICE
NELSON S. EBAUGH, a member of the Bar of this Court and appointed under
the Criminal Justice Act, certifies that, pursuant to Rule 29.5, he served the preceding
Petition for Writ of Certiorari and the accompanying Motion for Leave to Proceed In
Forma Pauperis on counsel for the Respondent (1) by mailing, on September 17, 2020,
a copy of these documents (via first-class United States mail, postage prepaid) to:
The Honorable Noel J. Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530

1

and also (2) by sending, on September 17, 2020, the said documents via electronic mail
to the Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served have
been served.

Nelson S. Ebaugh

2

